Audit
Report
         DEFENSE INFORMATION SYSTEMS AGENCY’S
            ACQUISITION MANAGEMENT OF THE
            GLOBAL COMBAT SUPPORT SYSTEM


Report No. D-2000-142                          June 9, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD, Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DISA                  Defense Information Systems Agency
GCSS                  Global Combat Support System
                       Office of the Inspector General, DoD
Report No. D-2000-142                                                     June 9, 2000
  (Project No. D2000AL-0087.000)
  (Formerly Project No. 0AL-0108)


            Defense Information Systems Agency’s Acquisition
            Management of the Global Combat Support System

                                    Executive Summary

Introduction. This report discusses the Defense Information Systems Agency’s
acquisition of the Global Combat Support System. The Global Combat Support System
is an infrastructure investment that allows users worldwide access to shared data and
applications regardless of their location.

The Global Combat Support System is a Special Interest Initiative subject to the Defense
Chief Information Officer’s review and is in the Production, Fielding/Deployment, and
Operational Support acquisition phase. The Global Combat Support System is one of
the Defense Information Systems Agency’s core mission areas and has been identified as
a management control assessable unit. The Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence); the Director for Logistics, Joint Staff; and
the General Officer Steering Group share acquisition and functional oversight of the
Global Combat Support System.

The Defense Information Systems Agency expects to complete an operational version of
the Global Combat Support System by the end of FY 2000. From its inception in
FY 1996 through FY 2000, funds totaling $125 million have been appropriated for the
information technology acquisition. Further, an additional $179 million has been
programmed for the Global Combat Support System through FY 2005. The Defense
Information Systems Agency plans to restructure the acquisition by implementing an
evolutionary phased business process in FY 2001.

Objectives. The overall objective was to evaluate the acquisition management of the
Global Combat Support System by the Defense Information Systems Agency. Specifically,
we determined whether the Defense Information Systems Agency was effectively acquiring
and preparing the Global Combat Support System for deployment and life-cycle support in
accordance with DoD and Office of Management and Budget guidance. In addition, we
evaluated the management control program as it related to the objective.

Results. The Defense Information Systems Agency had not established management
accountability for effectively acquiring and preparing the Global Combat Support
System for deployment and life-cycle support as required by DoD and Office of
Management and Budget guidance. As a result, the Defense Information Systems
Agency could not determine whether resources invested in the Global Combat Support
System acquisition provide quality and timely products to users within life-cycle
estimates; and therefore, by the beginning of FY 2001, they plan to implement a
performance-based measurement system in order to integrate management
accountability into the Global Combat Support System acquisition.

The management control recommendation in this report, if implemented, will improve
the effectiveness and efficiency of the Global Combat Support System investment. See
the Finding section for details of the audit results and Appendix A for details on the
Global Combat Support System management control program.

Summary of Recommendation. We recommend that the Director, Defense Information
Systems Agency, revise the management control plan for Global Combat Support System
to ensure that management control objectives, techniques, and evaluations correlate to the
1993 Government Performance and Results Act, 1994 Federal Acquisition Streamlining
Act, and 1996 Clinger-Cohen Act.

Management Comments. The Deputy Director for the Defense Information Systems
Agency’s C4 and Intelligence Programs Integration Directorate concurred with the
report finding and recommendation. A discussion of management comments is in the
Finding section of the report, and the complete text of the management comments is in
the Management Comments section.




                                           ii
Table of Contents

Executive Summary                          i


Introduction
     Background                           1
     Objectives                           2

Finding
     Management Accountability            3

Appendixes
     A. Audit Process
          Scope                           10
          Methodology                     11
          Management Control Program      11
          Prior Coverage                  12
     B. Report Distribution               13

Management Comments
     Defense Information Systems Agency   15
Background
            The Defense Information Systems Agency’s (DISA) investment in the Global
            Combat Support System (GCSS) implements the DoD Joint Vision 2010
            warfighting strategy1. The GCSS is an infrastructure investment that allows
            users worldwide access to shared data and applications regardless of their
            location. The GCSS will provide a consolidated data source to manage and
            monitor units, personnel, and equipment from mobilization through deployment,
            employment, sustainment, redeployment, and demobilization.

            The GCSS is a core mission area and has been identified as a management
            control assessable unit. The Director for Logistics, Joint Staff (J4) is the
            functional proponent for GCSS and shares the acquisition and functional
            oversight with the Assistant Secretary of Defense (Command, Control,
            Communications, and Intelligence), and the General Officer Steering Group2.
            The GCSS is a Special Interest Initiative subject to Defense Chief Information
            Officer review and is in the production, fielding/deployment, and operational
            support acquisition phase.

            DISA estimated that it will invest approximately $304 million in the GCSS from
            FY 1996 through FY 2005. System life-cycle costs in FY 1997 dollars were
            estimated to be $333 million. In FY 1999, Congress reduced the GCSS budget
            request from $31 million to $20 million because it did not accept the DISA
            justification for the increased funding.

            DISA developed and deployed prototype versions of the GCSS and plans to
            release and deploy an operational version by the end of FY 2000. Development
            and operations costs are expected to total $125 million; however, costs for
            releases and deployments could not be separately determined because DISA did
            not follow a structured acquisition business process to identify version costs.

            DISA plans to initiate an evolutionary phased business process in FY 2001.
            Following a planning, programming, and budgeting system for capital
            investments, DISA will be able to measure acquisition effectiveness by comparing
            GCSS results with approved baseline cost, schedule, and milestone values.




1
    Joint Vision 2010 is the joint warfighting strategy for the early 21st century that provides common
     direction to the military departments.
2
    The General Officer Steering Group is a integrated product team of flag and general officers from the
    Joint Staff directorates, Services, Defense Logistics Agency, combatant commands, OSD principal staff
    assistants, and DISA that provide centralized direction to the GCSS.



                                                       1
Objective
    The overall objective was to evaluate the acquisition management of the GCSS
    by DISA. We selected the GCSS because of its importance as an enabling
    system for the Joint Vision 2010 warfighting strategy. Specifically, we
    determined whether DISA was effectively acquiring and preparing the GCSS for
    deployment and life-cycle support in accordance with DoD and OMB guidance.
    In addition, we evaluated the management control program related to the
    objective. See Appendix A for a discussion of the audit scope and methodology,
    prior coverage, and the management control program review.




                                      2
                    Management Accountability
                    Management accountability was insufficient for effectively acquiring and
                    preparing the GCSS for deployment and life-cycle support as required by
                    DoD and Office of Management and Budget guidance. This condition
                    occurred because DISA had not managed the GCSS as a capital
                    acquisition with cost, schedule, and performance baselines linked to
                    mission area planning, budgeting, project management, accounting, and
                    auditing cycles. As a result, DISA could not determine whether
                    resources invested in the GCSS acquisition provide quality and timely
                    products to users within life-cycle estimates; and therefore, by the
                    beginning of FY 2001, DISA plans to implement a performance-based
                    measurement system in order to integrate management accountability into
                    the GCSS acquisition.

Mandatory Guidance
           Office of Management and Budget Circular A-11, Part 3. Office of
           Management and Budget Circular A-11, Part 3, “Planning, Budgeting and
           Acquisition of Capital Assets,” June 1997, provides guidance to agencies on
           planning, budgeting, and acquiring capital assets for major programs. The
           Circular establishes project accountability for acquisition investments and a
           reporting mechanism that provides senior management with timely information
           for evaluating portfolio investments and exercising trade-off decisions among
           competing systems. The Circular provides instructions and a reporting format,
           Exhibit 300B, "Capital Asset Plan and Justification," which agencies are
           required to attach to budget submissions. The reported information on the
           Exhibit measurably demonstrates how investments made in information
           technology support agency programs comply with the 1993 Government
           Performance and Results Act3, the 1994 Federal Acquisition Streamlining Act4,
           and the 1996 Clinger-Cohen Act5.

           Office of Management and Budget Circular A-109. Office of Management
           and Budget Circular A-109, “Major Systems Acquisitions,” April 1976,
           provides policies for the acquisition management of major systems. The
           Circular requires that acquisition programs maintain capabilities to:
              • predict, review, assess, negotiate, and monitor program costs;
              • assess acquisition cost, schedule, and performance experience against
                  predictions, and report on such assessments;
3
    The 1993 Government Performance and Results Act (Public Law 103-62) requires agencies to set
    results-oriented goals, measure performance, and report on their accomplishments.
4
    The 1994 Federal Acquisition Streamlining Act (Public Law 103-355) requires that if a project deviates
    from cost, schedule, and performance goals, the agency head is required to conduct a timely review of
    the project and identify appropriate corrective actions.
5
    The 1996 Clinger-Cohen Act (Division E of Public Law 104-106) requires Federal agencies to
    implement a process for maximizing the value and assessing and managing the risks of agency
    information technology acquisitions.



                                                      3
       •   make new assessments where significant cost, schedule, or variances occur;
       •   estimate life-cycle costs during system design-concept evaluation and
           update cost estimates throughout the acquisition life cycle to evaluate
           appropriate trade-offs among investment costs, ownership costs,
           schedules, and performances; and
       •   use independent cost estimates for comparisons, where feasible.

    Office of Management and Budget Circular A-123. Office of Management
    and Budget Circular A-123, “Management Accountability and Control,”
    June 1995, implements the Federal Managers’ Financial Integrity Act of 1982
    (31 U.S.C. 3512). The Circular defines management controls as the
    organization, policies, and procedures used to reasonably ensure that programs
    achieve their intended results; resources are consistent with the agency mission;
    programs are protected from waste, fraud, and mismanagement; laws and
    regulations are followed; and reliable and timely information is obtained,
    maintained, reported and used for decision making. Further, the Circular
    requires management controls to be an integral part of the mission area
    planning, budgeting, management, accounting, and auditing cycles.

    DoD Directive 5000.1. DoD Directive 5000.1, “Defense Acquisition,”
    March 1996, implements Office of Management and Budget Circulars A-109 and
    A-123. The Directive states that the primary objective of the defense acquisition
    system is to acquire quality products that satisfy the needs of operational users
    with measurable improvements to mission accomplishments, in a timely manner,
    at a fair and reasonable price. Further, the Directive requires that:
        • rigorous internal management control systems are integral to effective
             and accountable program management;
        • control objectives for acquisition cost, schedule, and performance
             parameters are embodied in Acquisition Program Baselines; and
        • material weaknesses are identified through deviations from approved
             Acquisition Program Baseline parameters and exit criteria.

GCSS Project Management
    DISA did not manage its acquisition of the GCSS as a capital investment.
    Therefore, GCSS information documented in DISA Information Technology
    Budget Exhibits (Exhibit 300B) and quarterly reports to the Office of the Assistant
    Secretary of Defense (Command, Control, Communications and Intelligence) did
    not demonstrate whether GCSS acquisition accomplishments were less than, equal
    to, or more than desired cost, schedule, and performance thresholds.

    Budget Submissions. DISA did not follow guidance in the Office of
    Management and Budget Circular A-11, Part 3, when it submitted its GCSS
    Exhibit 300B budget submissions to the Office of the Assistant Secretary of
    Defense (Command, Control, Communications and Intelligence) for FYs 1999,
    2000, and 2001. DISA described past and current accomplishments, performance
    goals, and program processes. The GCSS submissions did not provide oversight


                                        4
personnel with timely and objective progress reports for evaluating portfolio
investments and exercising trade-off decisions amongst competing systems. DISA
submissions did not address:
    • results-oriented goals and performance measurement effectiveness and
       accomplishments as required by the 1993 Government Performance and
       Results Act;
    • reviews of projects and identification of appropriate corrective actions
       when results deviated from cost, schedule, and performance goals as
       required by the 1994 Federal Acquisition Streamlining Act; and
    • processes for maximizing the value of and assessing and managing
       information technology risks as required by the 1996 Clinger-Cohen Act.

DISA did not link actual work accomplished with GCSS life-cycle acquisition
cost, schedule, and milestone baselines for reporting program effectiveness and
accomplishments. Without a performance-based management system, DISA
could not objectively determine and report whether investments made in the
GCSS acquisition would optimally support and advance Joint Vision 2010 goals
and objectives and provide quality and timely products to users within life-cycle
estimates.

Quarterly Reports. DISA quarterly reports submitted to the Office of the
Assistant Secretary of Defense (Command, Control, Communications and
Intelligence) did not include relevant acquisition cost, schedule, and milestone
information for GCSS that affected the investment's outcome. The Program
Manager’s assessments in FYs 1999 and 2000 quarterly reports did not report
deviations from baseline values despite an $11 million budget reduction directed
by Congress and requirement enhancements resulting from operation and
evaluation tests. Further, the Assistant Secretary accepted the quality of the
reported information and did not request additional information relating to the
progress and effectiveness of the acquisition.

        Program Deviations. Because DISA did not have a performance-based
business process to measure life-cycle progress, program deviations did not exist
for the GCSS acquisition. DISA measured GCSS program results and
effectiveness by the number of annual software and hardware releases and
versions and GCSS supported exercises, and did not determine and report the
quality of annual products in terms of cost, timeliness, and capability to meet
specified requirements. If planned releases and version deliveries of software
and hardware had to be reduced or exercises delayed, DISA slipped them to
future year budgets without reporting the program deviations. DISA did not
indicate the effect of reductions and delay deviations on life-cycle acquisition
costs. GCSS life-cycle acquisition costs of $333 million remained unchanged
from FY 1997 through FY 2000.

        Budget Reduction and Test Results. The DISA quarterly reports for
FY 1999 did not explain how the $11 million GCSS budget reduction affected
the progress of its acquisition investment. Rather than reporting to the Office of
the Assistant Secretary of Defense (Command, Control, Communications and
Intelligence) that eight exercises had to be rescheduled and that capability


                                    5
    support, site, survey, and installation requirements had to be delayed at two
    unified commands, quarterly submissions continually signaled positive green-
    light indicators for GCSS program costs, funding, schedule, requirements,
    technical risks, contracts, staffing, test and evaluation, and training. Further,
    quarterly reports did not state that operation and evaluation tests for Version 1.4
    resulted in 22 additional requirements and that 11 of them would be included in
    the planned operational version of the GCSS.

Project Management Control
    DISA had not integrated project management controls into its GCSS acquisition.
    Baselines for cost, schedule, and performance that linked mission area planning,
    budgeting, project management, accounting, and auditing cycles had not been
    established and applied to control objectives. As a result, DISA was unable to:
        § measure program results and effectiveness by tracing system
            requirements to system products, and
        § manage risks by continually identifying, assessing, and monitoring issues
            affecting planned outcomes.

    System Requirements to Products. System requirements could not be linked
    to system products because the DISA business process for funding GCSS did not
    recognize the acquisition as a life-cycle capital investment. Annually, DISA
    developed budgets to acquire GCSS products; however, they did not directly
    link to acquisition cost, schedule, and performance life-cycle determinations,
    and requirements were not baselined to GCSS products. As a result, DISA did
    not have a management control objective for GCSS with control techniques for
    measuring program results and effectiveness and for determining deviations.

    Risk Management. DISA did not have processes in place to continually
    evaluate, assess, and monitor risks. In October 1995, DISA prepared a risk
    analysis as part of its GCSS implementation plan to address costs of integration
    and fielding, program synchronization, and hardware and software component
    integration. DISA rated the three categories as moderate risks. However,
    DISA did not proactively track and update the identified individual risk areas
    when it initiated the GCSS acquisition in FY 1996.

    Risks are inherent in all capital asset acquisitions. Risk management involves
    monitoring known risks, identifying evolving risks, and developing changing
    strategies or actions to mitigate risks. DISA stated in its GCSS implementation
    plan that it would use normal project oversight tracking of costs and deviation
    from schedules to identify and review cost and schedule risks. However,
    because DISA did not initiate a performance-based management system for
    tracking costs, schedule, and milestones over the GCSS life cycle, it could not
    effectively manage risks and respond to evolving deviations.




                                         6
Management Control Plan
    The DISA management control plan for the GCSS did not include program cost,
    schedule, and performance baseline objectives and did not follow agency
    guidance. Evaluations did not follow plan schedules, and evaluation reports did
    not determine whether control techniques were in place for monitoring program
    results and effectiveness.

    Guidance. DISA Instruction 630-125-6, "Management Control Program,"
    October 22, 1997, implements Office of Management and Budget
    Circular A-123, "Management Accountability and Control." The instruction
    states that management controls are a means of managing risk. Each assessable
    unit is required to:
        • develop and document control techniques that are linked to specific
             program objectives, and
        • evaluate control techniques to determine whether mechanisms are in
             place to ensure that control objectives are met.

    Objectives and Evaluations. DISA management control plan objectives and
    evaluations did not demonstrate whether DISA was managing risk. The plan
    identified 11 control objectives in 8 test areas but did not identify control
    techniques included in cost, schedule, and performance baselines. Specifically,
    the 5-year management control plan did not document any control techniques for:
        • core component reuse,
        • project control,
        • functional integration,
        • planning development,
        • financial planning,
        • customer planning,
        • contract management, and
        • program management.

    Further, when DISA did evaluate management control objectives, it did not
    follow plan schedules, and the results did not conclude whether control
    techniques were in place for measuring program results and effectiveness.

    In FY 1998, DISA planned to evaluate project control; however, the evaluation
    did not occur, nor was the rationale for its absence documented. In FY 1999,
    DISA evaluated functional integration and planning development. The
    evaluation report did not make any conclusions; it documented accomplishments
    and technical test results with information similar to that reported in one of the
    DISA FY 1999 quarterly reports. As a result, DISA did not have an effective
    management control program with objectives, techniques, and evaluations
    demonstrating that the acquisition structure of the GCSS investment would
    achieve intended program results.




                                        7
Conclusion
    DISA did not manage its GCSS acquisition as a capital investment. The DISA
    business process for managing its investment and reporting results to the Office
    of the Assistant Secretary of Defense (Command, Control, Communications and
    Intelligence) did not follow a disciplined acquisition system life-cycle approach.
    Management control cost, schedule, and milestone baselines linked to mission
    area planning, budgeting, project management, accounting, and auditing cycles
    were not integrated into the GCSS acquisition business process. Without
    baselines for measuring results and determining effectiveness, DISA could not
    convincingly demonstrate and objectively report whether the $125 million
    investment in the GCSS acquisition from FY 1996 through FY 2000 measurably
    improved operational user mission accomplishments, in a timely manner, at a
    fair and reasonable price.

    The inability of DISA to measure GCSS results and determine its effectiveness
    also affected the ability of decision-makers to manage information technology
    investments. Without quality information in reports, information technology
    investments cannot be scored, ranked, and compared to optimize budget
    resources.

    DISA plans to change its business processes for managing the GCSS acquisition.
    Following a planning, programming, and budgeting system for capital
    investments, DISA developed an Evolutionary Phased Implementation Plan that
    will be capable of measuring results and effectiveness by comparing cost,
    schedule, and milestone baselines with actual accomplishments. By
    implementing a performance-based measurement system that links with
    processes addressing technical solutions, systems support, risk management,
    testing, and economic analysis by the beginning of FY 2001, DISA believes that
    management accountability will be provided to the GCSS acquisition investment.
    Accordingly, this report does not contain recommendations addressing project
    management for the GCSS acquisition.

    However, to ensure that the implementation of the Evolutionary Phased
    Implementation Plan establishes an effective performance-based measurement
    system and to test and ensure that business processes demonstrate quality project
    accountability, DISA needs to revise its management control plan for the GCSS
    assessable unit. The management control plan should link control objectives,
    techniques, and evaluations for maximizing value and assessing and managing
    information technology risks to results-oriented goals, accomplishments, and
    measures of effectiveness.




                                        8
Recommendation and Management Comments
    We recommend that the Director, Defense Information Systems Agency revise
    the Global Combat Support System Management Control Plan to include
    management control objectives, techniques, and evaluations that correlate to
    the:

       •   1993 Government Performance and Results Act for results-oriented
           goals, performance measurement, and accomplishments;

       •   1994 Federal Acquisition Streamlining Act for timely reviews of
           projects and identify corrective actions when results deviate from
           cost, schedule, and performance goals; and

       •   1996 Clinger-Cohen Act processes for maximizing the value and
           assessing and managing information technology risks.

    Management Comments. The Deputy Director, for C4 and Intelligence
    Programs Integration Directorate, commenting for the Defense Information
    Systems Agency, concurred and stated that the Defense Information Systems
    Agency is taking actions to comply with the Acts. By September 2000 the
    Global Combat Support System management control plan will be revised and
    more robust economic analyses and life cycle cost estimates will be included in
    the Evolutionary Phased Implementation Plan. The complete text of
    management comments is in the Management Comments section.




                                        9
Appendix A. Audit Process

Scope
    We conducted the program audit from October 1999 through April 2000 and
    reviewed documentation dated from September 1995 through March 2000. To
    accomplish the audit objective, we:
        • interviewed officials and obtained documentation from the offices of the
           Assistant Secretary of Defense (Command, Control, Communications
           and Intelligence), DISA, and the GCSS Program Management Office;
        • reviewed available GCSS documents covering program requirements,
           program definition, program assessments and decision reviews, periodic
           reporting, and program management and oversight;
        • reviewed FYs 1999, 2000, and 2001 budget submissions and
           FYs 1999 and 2000 appropriation funding and execution documents; and
        • evaluated the adequacy of management controls related to the GCSS
           acquisition, including management’s self-evaluation of management
           controls applicable to the acquisition.

    DoD-Wide Corporate Level Government Performance and Results Act
    (GPRA) Coverage. In response to the GPRA, the Secretary of Defense
    annually establishes DoD-wide corporate level goals, subordinate performance
    goals, and performance measures. This report pertains to achievement of the
    following goal, subordinate performance goals, and performance measure.

        FY 2000 DoD Corporate Level Goal 2: Prepare now for an uncertain future
        by pursuing a focused modernization effort that maintains U.S. qualitative
        superiority in key warfighting capabilities. Transform the force by exploiting
        the Revolution in Military Affairs, and reengineer the Department to achieve a
        21st century infrastructure. (00-DoD-2)
        • FY 2000 Subordinate Performance Goal 2.3: Streamline the DoD
            infrastructure by redesigning the Department's support structure and
            pursuing business practice reforms. (00-DoD-2.3)
            Performance Measure 2.3.5: Visibility and Accessibility of DoD
            Materiel Assets. (00-DoD-2.3.5)

        •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
            and information management. (01-DoD-2.5)
            Performance Measure 2.5.3: Qualitative Assessment of Reforming
            Information Technology Management. (01-DoD-2.5.3)




                                       10
    DoD Functional Area Reform Goals. Most major DoD functional areas have also
    established performance improvement reform objectives and goals. This report
    pertains to achievement of the following functional area objectives and goals:

       Information Technology Management Functional Area.
          • Objective. Provide services that satisfy customer information needs.
             Goal. Modernize and integrate Defense Information Infrastructure.
             (ITM 2.2)
             Goal. Improve information technology management tool. (ITM-2.4)

           •   Objective. Reform information technology management processes to
               increase efficiency and mission contribution.
               Goal. Institutionalize provisions of the Information Technology
               Management Reform Act of 1996. (ITM 3.1)
               Goal. Institute fundamental information technology management
               reform efforts. (ITM 3.2)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Information Management and Technology high-risk area.

Methodology
    We conducted this program audit in accordance with auditing standards issued
    by the Comptroller of the United States, as implemented by the Inspector
    General, DoD. Accordingly, we included tests of management controls
    considered necessary. We did not use computer-processed data or statistical
    sampling procedures to perform this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available upon request.

Management Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    requires DoD managers to implement a comprehensive system of management
    controls that provides reasonable assurance that programs are efficiently and
    effectively carried out in accordance with applicable law and management policy
    and to evaluate the adequacy of those controls.




                                       11
    Scope of Review of the Management Control Program. In accordance with
    DoD Directive 5000.1, “Defense Acquisition,” March 15, 1996, and
    DoD 5000.2-R, “Mandatory Procedures for Major Defense Acquisition
    Programs (MDAPs) and Major Automated information System (MAIS)
    Acquisition Programs,” March 15, 1996, acquisition managers are to apply
    programs cost, schedule, and performance parameters to control objectives for
    implementing DoD Directive 5010.38 requirements. Accordingly, we limited
    our review to management controls directly related to the DISA acquisition of
    GCSS. We also reviewed management’s self-evaluation of management
    controls applicable to the acquisition of the GCSS.

    Adequacy of the Management Control Program. Management controls were
    inadequate. We identified a material management control weakness, as defined
    by DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996. DISA had not integrated cost, schedule, and
    performance parameters into its management control plan for the GCSS
    acquisition. Control objectives, techniques and evaluations for monitoring
    results and effectiveness did not link to mission area planning, budgeting,
    project management, accounting, and auditing cycles. If implemented, our
    recommendation to the Director, DISA, will correct the identified weakness.
    We will provide a copy of this report to the senior official responsible for
    management controls in DISA.

    Adequacy of Management’s Self-Evaluation. DISA identified the GCSS
    Office as an assessable unit. However, management did not identify the
    material management control weakness because they performed an inadequate
    self-evaluation.

Prior Coverage
    During the last 5 years, no audits have been performed on the Defense
    Information Systems Agency’s Global Combat Support System.




                                      12
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications and Intelligence)
Deputy Under Secretary of Defense (Logistics)
Director, Defense Logistics Studies Information Exchange

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Auditor General, Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Air Force Audit Agency

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Information Systems Agency
   Comptroller, Defense Information Systems Agency
   Inspector General, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, Joint Staff
   Director for Logistics (J-4)
   Director for Command, Control, Communications and Computers
      Systems Directorate (J-6)
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                          13
Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                          14
Defense Information Systems Agency




                      15
16
17
Audit Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector General for
   Auditing, DoD, prepared this report.

     Thomas F. Gimble
     Patrica A. Brannin
     Mary Lu Ugone
     Charles M. Santoni
     David M. Wyte
     Steve J. Bressi
     Walter S. Bohinski
     Setranique Clawson
     Cynthia B. Stull
